                  The Certification and Accreditation of
                 Computer Systems Should Remain in the
                  Computer Security Material Weakness

                                    August 2004

                       Reference Number: 2004-20-129




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           August 9, 2004


       MEMORANDUM FOR CHIEF, MISSION ASSURANCE


       FROM:                 Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report – The Certification and Accreditation of
                              Computer Systems Should Remain in the Computer Security
                              Material Weakness (Audit # 200420005)


       This report presents the results of our review of the effectiveness of Internal Revenue
       Service (IRS) actions to resolve the certification and accreditation vulnerabilities
       associated with the computer security material weakness. The Department of the
       Treasury requested that the Treasury Inspector General for Tax Administration (TIGTA)
       provide an independent assessment of the effectiveness of the IRS’ actions to address
       the material weakness. This report is from one of five reviews conducted during this
       fiscal year to meet this request.
       In summary, the IRS has made commendable progress in certifying its many computer
       systems, but additional work remains to be performed before this area within the
       computer security material weakness can be downgraded. The IRS Office of Mission
       Assurance has initiated efforts to revamp the certification process by placing all IRS
       systems into one of four categories. As of February 2004, these categories were
       General Support Systems (29 systems), Major Applications (27 systems), Applications
       of Interest (31 systems), and Other Applications (312 systems).
       The Chief, Mission Assurance, established certification requirements for the General
       Support Systems, Major Applications, and Applications of Interest. Other Applications
       will be mapped to the appropriate General Support System, and less stringent security
       self-assessments will be used as a basis to review security in the Other Applications.
       As of May 2004, 36 (12 percent) of the 312 Other Applications had not yet been
       mapped.
       We concur with the overall approach for classifying systems in the new categories
       based on risks and for developing customized certification requirements for each of the
                                                       2

categories. The IRS is following guidance from the Federal Information Security
Management Act1 and the National Institute of Standards and Technology (NIST).2
However, the IRS has not certified and accredited enough systems to downgrade this
area within the computer security material weakness. As of February 2004, the IRS
reported that 58 (67 percent) of the 87 General Support Systems, Major Applications,
and Applications of Interest had been certified. In addition, only 18 (31 percent) of the
58 certified systems had been accredited. The unaccredited systems are in use by the
IRS, although no IRS manager has accepted responsibility for the respective systems’
security. In the past, the IRS has not monitored the accreditation process to ensure
accreditations were completed and accountability over the systems was maintained.
The Office of Mission Assurance has initiated efforts to begin tracking accreditations of
systems and when it expects accreditations to be completed, although no formal
process to do this has been established.
We recommended the Chief, Mission Assurance, keep the certification and
accreditation of computer systems as part of the computer security material weakness
until a sufficient number of systems has been certified. We suggested the IRS follow
the lead provided by the President’s Management Agenda (PMA),3 which states that at
least 90 percent of the systems should be certified and accredited for agencies to get a
“green” status. In addition, the Chief, Mission Assurance, should continue mapping
Other Applications to General Support Systems to ensure all Other Applications are
included in a General Support Systems certification and accreditation, and should
establish a formal process to monitor accreditations and report noncompliance, as
needed, to the Deputy Commissioners to ensure accreditations are completed.
Management’s Response: The Chief, Mission Assurance, disagreed with the
recommendation that certification and accreditation remain as part of the computer
security material weakness. He contended the IRS has exceeded the goal it set in
2002, to certify and accredit 75 percent of IRS systems known at that time. The Chief,
Mission Assurance, agreed with the other two recommendations. He has developed a
plan to ensure all Other Applications are correctly mapped to General Support Systems
and has implemented a process to require accreditation memoranda be returned to his
office. This will allow him to ensure accreditations have been completed and to monitor
and report any noncompliance to the IRS Deputy Commissioners on a yearly basis.
Management’s complete response to the draft report is included as Appendix V.
Office of Audit Comment: We strongly believe the certification and accreditation of
sensitive systems should remain as part of the computer security material weakness.

1
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
2
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements, for providing adequate information security for all Federal Government agency operations
and assets.
3
  The PMA outlines the President’s strategy for improving the management and performance of the Federal
Government. Congressional testimony from the Honorable Karen Evans from the OMB on March 16, 2004,
referred to the President’s Management Agenda as an important mechanism for acknowledging agency Information
Technology security progress and highlighting significant problems.
                                            3

Since 2002, when the IRS established its baseline goal for closing the certification and
accreditation material weakness area, there have been two significant developments
that lead us to conclude this issue has not yet been resolved.
First, agencies’ certification and accreditation performance has received increased
attention and oversight by the Office of Management and Budget (OMB). The
Expanding E-Government Scorecard under the PMA has established that 90 percent of
systems should be certified and accredited for an agency to receive “green” status in
this area and that 80 percent compliance receive “yellow” status. Therefore, we believe
a 75 percent performance measure, while acceptable in 2002, is not in line with the
current Government-wide goals.
Second, the IRS’ systems inventory count in 2002, which served as the baseline for the
75 percent goal, has proven to be inaccurate. Since that time, IRS management has
rigorously worked to establish an accurate inventory of systems. As a result, both the
number of systems and the number requiring certification and accreditation have been
revised. Based on this more accurate data, and as stated in this report, the IRS had
certified 67 percent of its major systems, as of February 2004.
In its response, the IRS proposed to close certification and accreditation as a material
weakness area and then assess the prudence of reopening it as a new material
weakness. The benefit of this approach is not clear. In our opinion, the weakness has
existed for years and has not yet been corrected to meet the goals of the PMA.
Accordingly, we believe it should remain as part of the computer security material
weakness and we intend to elevate our disagreement to the Department of the Treasury
for resolution.
The Deputy Commissioner for Operations Support is responsible for ensuring the IRS
Commissioner submits a written reply to the Assistant Secretary for Management and
Chief Financial Officer of the Department of the Treasury within 30 calendar days of the
final report issuance date. This reply should explain the IRS’ reasons for the lack of
agreement with the recommendation contained in this audit report. The IRS
Commissioner will provide a copy of the reply to the TIGTA. Resolution shall be made
within a maximum of 6 months after issuance of a final TIGTA audit report, in
accordance with OMB Circular A-50.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                     The Certification and Accreditation of Computer Systems
                    Should Remain in the Computer Security Material Weakness




                                                  Table of Contents


Background ............................................................................................... Page 1
More Actions Need to Be Completed Before the Certification
and Accreditation Material Weakness Area Is Downgraded...................... Page 2
         Recommendation 1: ...................................................................... Page 8
         Recommendation 2: ...................................................................... Page 9
         Recommendation 3: ...................................................................... Page 10

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Summary of the Certification and Accreditation Process.... Page 14
Appendix V – Management’s Response to the Draft Report ..................... Page 16
              The Certification and Accreditation of Computer Systems
             Should Remain in the Computer Security Material Weakness

                               The Federal Managers’ Financial Integrity Act1 requires that
Background
                               each agency conduct annual evaluations of its systems of
                               internal accounting and administrative control and submit an
                               annual statement on the status of the agency’s system of
                               management controls. As part of the evaluations, agency
                               managers identify control areas that can be considered
                               material or significant weaknesses.
                               The Department of the Treasury has defined a material
                               weakness as, “shortcomings in operations or systems which,
                               among other things, severely impair or threaten the
                               organization’s ability to accomplish its mission or to prepare
                               timely, accurate financial statements or reports.” The Office
                               of Management and Budget (OMB) monitors’ progress on
                               these weaknesses.
                               The Department of the Treasury also defines weaknesses of
                               lesser importance, sometimes referred to as Reportable
                               Conditions or Significant Control Deficiencies. These are
                               problematic issues which do not rise to the level of
                               materiality but which warrant special management attention
                               to ensure improvement rather than deterioration to the point
                               at which they become material weaknesses. The OMB does
                               not monitor progress on these weaknesses.
                               In 1995, the Internal Revenue Service (IRS) began
                               monitoring the certification and accreditation process of its
                               sensitive computer systems as a potential management
                               control weakness. In 1997, the IRS officially reported it as
                               a material weakness.
                               Certification and accreditation, as defined and required by
                               the OMB for all Federal Government automated information
                               systems,2 is a process to provide assurance that adequate
                               security controls are in place over computer systems.
                               Systems should be certified and accredited before being
                               implemented and at least every 3 years thereafter or when a
                               significant change is made that affects the system,
                               whichever occurs first.
                               Certification is the comprehensive evaluation of the
                               technical and non-technical security controls and the

                               1
                                31 U.S.C.: §§ 1105, 1113, and 3512 (2000).
                               2
                                OMB Circular A-130, Management of Federal Information Resources,
                               dated February 1996.
                                                                                         Page 1
                 The Certification and Accreditation of Computer Systems
                Should Remain in the Computer Security Material Weakness

                                  identification of any weaknesses with those controls or lack
                                  thereof. Accreditation is an authorization granted by a
                                  management official to operate the system based on the
                                  evaluation of the security controls. It is a statement that the
                                  management official (i.e., the accrediting official) is aware
                                  of, understands, and accepts responsibility for the risks
                                  associated with placing the system into operation. A
                                  summary of the certification and accreditation process is
                                  provided in Appendix IV.
                                  In October 2002, the IRS consolidated all computer
                                  security-related material weaknesses, including the
                                  certification and accreditation of sensitive systems, into one
                                  material weakness.3 The Department of the Treasury
                                  requested that the Treasury Inspector General for Tax
                                  Administration provide an independent assessment of the
                                  effectiveness of the IRS’ actions to address the overall
                                  computer security material weakness. This review is one of
                                  five reviews conducted during this fiscal year to meet this
                                  request.
                                  This review was conducted in the Office of Mission
                                  Assurance facilities at the IRS Headquarters in
                                  New Carrollton, Maryland, during the period August 2003
                                  through April 2004. The audit was conducted in accordance
                                  with Government Auditing Standards. Detailed information
                                  on our audit objective, scope, and methodology is presented
                                  in Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The IRS has made commendable progress in certifying its
More Actions Need to Be
                                  many computer systems, but additional work remains to be
Completed Before the
                                  performed before this area within the computer security
Certification and Accreditation
                                  material weakness can be downgraded. Determining the
Material Weakness Area Is
                                  number of systems to be certified and accredited has been a
Downgraded


                                  3
                                   The computer security material weakness consists of nine areas:
                                  (1) Network Access Controls; (2) Key Computer Applications and
                                  System Access Controls; (3) Configuration of Software; (4) Functional
                                  Business, Operating, and Program Units’ Security Roles and
                                  Responsibilities; (5) Segregation of Duties Between System and
                                  Security Administrators; (6) Contingency Planning and Disaster
                                  Recovery; (7) Monitoring of Key Networks and Systems; (8) Security
                                  Training; and (9) Certification and Accreditation.
                                                                                                 Page 2
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                  challenge. In addition, a sufficient number of systems has
                  not been certified and accredited.
                  Determining the number of systems to be certified and
                  accredited has been a challenge
                  When we conducted an audit in this area in January 1999,
                  the IRS had certified 10 percent of its sensitive systems.4
                  In May 2002, the certification percentage had increased to
                  39 percent, based on a follow-up review we performed.5
                  The IRS established a certification goal of 75 percent by
                  September 2003 to close this material weakness and
                  reported to the Department of the Treasury that it had met
                  this goal.
                  However, the percentage of systems certified has always
                  been questionable because the IRS has had difficulty
                  determining the number of systems to be certified. In
                  January 2000, the IRS reported it had 258 computer systems
                  and it has since reported a different number every year, as
                  reflected in Chart 1.
                                                    Chart 1

                                       Inventory of IRS Systems

                            700
                            600                                  569
                            500
                                                                         424
                            400
                            300     258       269       283
                            200
                            100
                              0
                                   Jan      May        Oct     Jan      Sept
                                   2000     2002       2002    2003     2003


                  Source: The IRS Office of Mission Assurance.

                  This system inventory fluctuation was a result of the IRS’
                  own changing interpretation of what it considered a system.

                  4
                    Certifying the Security of Internal Revenue Service Computer Systems
                  Is Still A Material Weakness (Reference Number 2000-20-092, dated
                  June 2000).
                  5
                    Although Still Behind in Certifying the Security of Sensitive Computer
                  Systems, the Internal Revenue Service Has Made Significant Progress
                  (Reference Number 2002-20-165, dated September 2002).
                                                                                   Page 3
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                  At its peak in January 2003, the IRS system count consisted
                  of any computer program that resembled a system. For
                  example, the inventory included those programs that were
                  not even information systems, such as spreadsheets and
                  other personal productivity tools. After a concerted effort to
                  purify its system inventory number, the IRS reported it had
                  424 sensitive systems, as of September 2003.
                  When the IRS reported it had met the 75 percent
                  certification goal of its sensitive systems, it had based its
                  accomplishments on the number of sensitive systems known
                  in October 2002, which totaled 283. The October 2002 date
                  represented when the IRS and the Department of the
                  Treasury agreed to the 75 percent milestone. Thus, the IRS
                  reported that it had certified 232 (82 percent) of
                  283 systems.
                  We believe meeting the 75 percent milestone on an outdated
                  number of systems does not warrant the downgrading or
                  closing of the certification and accreditation material
                  weakness area. The IRS operated an additional 141 systems
                  that were not considered when the IRS calculated its
                  accomplishments. Therefore, we concluded that, as of
                  September 2003, the IRS had certified 232 (55 percent) of
                  424 systems.
                  The Department of the Treasury recognized the differences
                  in these accomplishments. In December 2003, it gave the
                  IRS 60 days to straighten out the count of its sensitive
                  systems for certification and accreditation purposes. To
                  meet this mandate as well as to address the certification and
                  accreditation material weakness area, the IRS planned to
                  take the following actions:
                     •   Establish new system categories based on risk level
                         and mission criticality, ensuring methodology and
                         deliverables are consistent with guidance from the
                         Federal Information Security Management Act




                                                                         Page 4
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                          (FISMA)6 and the National Institute of Standards
                          and Technology (NIST).7
                      •   Establish certification and accreditation
                          requirements for each of the new system categories.
                      •   Certify and accredit systems necessary to downgrade
                          or close the material weakness area.
                  To establish new system categories, the Office of Mission
                  Assurance reevaluated the IRS’ systems inventory to
                  definitively identify the total number of systems and
                  developed a new systems categorization methodology.
                  While conducting this effort, the Office of Mission
                  Assurance found that some systems were no longer
                  operational and others could be considered as a subsystem
                  of another system.
                  In February 2004, the Office of Mission Assurance
                  presented its new methodology, which placed 399 systems
                  into 1 of 4 categories based on risk, defined as follows:
                  General Support Systems (29 systems) provide necessary
                  Information Technology infrastructure support to
                  applications and business functionality. Compromise of
                  these systems would have a severe adverse effect on the IRS
                  mission, tax administration functions, and/or employee
                  welfare. Subcategories consist of telecommunications,
                  modernization, computing platforms, and other networks.
                  Major Applications (27 systems) require special attention to
                  security because of the severe adverse effect that
                  compromise of these applications would have on the IRS
                  mission, tax administration functions, and/or employee
                  welfare. This category includes production modernization
                  systems, consolidated applications on the same platform,
                  and financial systems based on size and scope.


                  6
                    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                  7
                    The NIST, under the Department of Commerce, is responsible for
                  developing standards and guidelines, including minimum requirements,
                  for providing adequate information security for all Federal Government
                  agency operations and assets. NIST Special Publication 800-37, Guide
                  for the Security Certification and Accreditation of Federal Information
                  Systems, provides guidelines for executive agencies to help achieve
                  more secure information systems within the Federal Government.
                                                                                  Page 5
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                  Applications of Interest (31 systems) do not possess the
                  level of interest and size or scope of the Major Application
                  category but require additional levels of control because,
                  based on business functionality, level of exposure, or third
                  party interest, compromise would significantly degrade the
                  IRS’ mission and tax administration operation.
                  Other Applications (312 systems) do not generally require
                  additional security safeguards above those provided by the
                  General Support System.
                  In establishing certification and accreditation requirements,
                  the Office of Mission Assurance has proposed procedures
                  that would assign varying levels of certification
                  requirements to the four categories. The procedures require
                  that General Support Systems and Major Applications
                  receive a full independent certification as well as
                  accreditation. The procedures specify that Applications of
                  Interest receive various levels of certification depending on
                  the results of a risk analysis.
                  The IRS did not plan to conduct separate testing on the
                  Other Applications. Instead, it planned to map the Other
                  Applications to a General Support System and rely
                  primarily on the security controls existing in the underlying
                  network of the General Support System, which will be
                  required to be certified and accredited. As of May 2004, the
                  IRS had not yet mapped 36 (12 percent) of the 312 systems
                  in the Other Applications category to a General Support
                  System.
                  We also raised concerns with this approach due to the
                  sensitivity of data on some of the Other Applications and
                  the need to maintain security controls on the applications as
                  well as the General Support System.
                  The Office of Mission Assurance plans to continue
                  discussions with IRS personnel and to conduct site
                  visitations to complete this mapping effort, as well as to
                  ensure all systems in the Other Applications category are
                  accurately categorized.
                  In May 2004, the Chief, Mission Assurance, decided that
                  security self-assessments, as required by the FISMA, would
                  be conducted for the Other Applications. These
                  self-assessments, which are less stringent than the
                                                                         Page 6
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                  certification requirements for the other three categories, will
                  provide some review of security controls on the Other
                  Applications.
                  We concur with the overall approach the IRS is now taking
                  with the categorization of its systems and its new
                  certification requirements. This approach will allow the IRS
                  to focus most of its certification efforts on the General
                  Support Systems, Major Applications, and Applications of
                  Interest, while still providing some assessment of controls
                  on the Other Applications. The approach is substantially
                  consistent with NIST guidance.
                  A sufficient number of systems has not been certified
                  and accredited
                  The IRS has not certified enough systems to downgrade this
                  material weakness. As of February 2004, the IRS reported
                  it had certified 58 (67 percent) of the 87 General Support
                  Systems, Major Applications, and Applications of Interest.
                  Once systems have been certified, the Office of Mission
                  Assurance provides various documents to the accrediting
                  officials for consideration. These documents include
                  current system security plans, security assessment reports,
                  and actions needed to correct deficiencies noted during
                  testing.
                  After reviewing certification information, accrediting
                  officials have three choices. They can:
                     •   Submit full authorization to operate as is.
                     •   Provide an interim approval to operate pending the
                         correction of vulnerabilities.
                     •   Deny authorization to operate.
                  We found that accrediting officials were not complying with
                  the accreditation procedures. Only 18 (31 percent) of the
                  58 certified systems had been accredited. The unaccredited
                  systems are already in use by the IRS. However, no IRS
                  employee is accountable for the security of those systems
                  that have not been accredited. Consequently, unaccredited
                  systems are more likely to become operational with known
                  security vulnerabilities, thus placing the systems and their
                  data at risk.
                                                                           Page 7
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                  Business unit system owners are primarily responsible for
                  accrediting their systems. In the past, the IRS has not
                  monitored the accreditation process to ensure accreditations
                  were completed and accountability over the systems was
                  maintained. While it has no authority over the accreditation
                  process, the Office of Mission Assurance has initiated
                  efforts to begin tracking accreditations of systems and when
                  it expects accreditations to be completed, although no
                  formal process to do this has been established.
                  Without an effective certification and accreditation process,
                  the IRS cannot make informed decisions on the risks
                  associated with its systems. Until the process provides a
                  more thorough assessment of risk for systems and
                  applications, we believe the additional oversight provided
                  by externally reporting this weakness area is appropriate.

                  Recommendations

                  The Chief, Mission Assurance, should:
                  1. Keep the certification and accreditation of computer
                     systems as part of the computer security material
                     weakness until a sufficient number of systems has been
                     certified and accredited. We suggest the IRS follow the
                     Expanding E-Government Scorecard for Information
                     Technology Security under the President’s Management
                     Agenda (PMA),8 which states that at least 90 percent of
                     the systems should be certified and accredited for
                     agencies to receive “green” status in this area.
                  Management’s Response: The Chief, Mission Assurance,
                  disagreed with this recommendation and contended the IRS
                  has exceeded the goal it set in 2002, to certify and accredit
                  75 percent of IRS systems.
                  Office of Audit Comment: We strongly believe that
                  certification and accreditation of sensitive systems should

                  8
                   The PMA outlines the President’s strategy for improving the
                  management and performance of the Federal Government.
                  Congressional testimony from the Honorable Karen Evans from the
                  OMB on March 16, 2004, referred to the President’s Management
                  Agenda as an important mechanism for acknowledging agency
                  Information Technology security progress and highlighting significant
                  problems.
                                                                                 Page 8
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                  remain part of the computer security material weakness.
                  Since 2002, when the IRS established its baseline goal for
                  closing the certification and accreditation material weakness
                  area, there have been two significant developments that lead
                  us to conclude this issue has not yet been resolved.
                  First, agencies’ certification and accreditation performance
                  has received increased attention and oversight by the OMB.
                  The Expanding E-Government Scorecard under the PMA
                  has established that 90 percent of systems should be
                  certified and accredited for an agency to receive “green”
                  status in this area and that 80 percent compliance receive
                  “yellow” status. Therefore, we believe a 75 percent
                  performance measure, while acceptable in 2002, is not in
                  line with the current Government-wide goals.
                  Second, the IRS’ systems inventory number in 2002, which
                  served as the baseline for the 75 percent goal, has proven to
                  be inaccurate. Since that time, IRS management has
                  rigorously worked to establish an accurate inventory of
                  systems. As a result, both the number of systems and the
                  number requiring certification and accreditation have been
                  revised. Based on this more accurate data, and as stated in
                  this report, the IRS had certified 67 percent of its major
                  systems, as of February 2004.
                  In its response, the IRS proposed to close certification and
                  accreditation as a material weakness area and then assess the
                  prudence of reopening it as a new material weakness. The
                  benefit of this approach is not clear. In our opinion, the
                  weakness has existed for years and has not yet been
                  corrected to meet the goals of the PMA. Accordingly, we
                  believe it should remain as part of the computer security
                  material weakness.
                  2. Complete the mapping of systems in the Other
                     Applications category to the General Support Systems to
                     ensure all Other Applications are included in a General
                     Support Systems certification and accreditation. Site
                     visitations should be completed as planned to ensure all
                     systems, including Other Applications, have been
                     appropriately categorized and receive the necessary
                     certification attention.


                                                                         Page 9
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                  Management’s Response: The Chief, Mission Assurance,
                  agreed with this recommendation and the IRS has developed
                  a plan to ensure all Other Applications are correctly mapped
                  to General Support Systems as part of its new certification
                  and accreditation approach.
                  3. Establish a formal process to monitor accreditations and
                     report noncompliance, as needed, to the Deputy
                     Commissioners to ensure accreditations are completed.
                  Management’s Response: The Chief, Mission Assurance,
                  agreed with this recommendation and has implemented a
                  process that requires all accreditation memoranda to be
                  returned to his office and provides the IRS Deputy
                  Commissioners with a report of systems not accredited on
                  an annual basis.




                                                                      Page 10
                The Certification and Accreditation of Computer Systems
               Should Remain in the Computer Security Material Weakness

                                                                                        Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has effectively resolved vulnerabilities associated with its computer security material
weakness. The IRS has segregated this material weakness into nine areas, one of which covers
the certification and accreditation of computer systems. To accomplish our objective, we:
I.     Determined if the applications in the revised master inventory have been appropriately
       categorized.
       A. Evaluated the criteria used for categorizing systems and applications into the four
          categories (General Support Systems, Major Applications, Applications of Interest,
          and Other Applications).
       B. If any systems were miscategorized, determined the reasons why.
II.    Determined if certification requirements established for each of the four categories were
       appropriate.
       A. Identified the specific certification requirements for each of the four categories.
       B. Evaluated the certification requirements for each category to determine whether
          adequate security was reflected for each category. If any categories had insufficient
          certification requirements, we determined the reason why.
III.   Determined how the revised certification and accreditation approach and system
       inventory count affected the material weakness definition and assessed the current status
       of the material weakness.
IV.    Assessed the certification and accreditation process in terms of the general coverage of
       certification testing, the identification of security vulnerabilities, and the compliance with
       accreditation requirements.
V.     Determined how many systems had been certified and accredited. For systems not
       certified or accredited, we held discussions with Office of Mission Assurance staff to
       determine the reasons why.




                                                                                              Page 11
               The Certification and Accreditation of Computer Systems
              Should Remain in the Computer Security Material Weakness

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Mary Jankowski, Senior Auditor
Thomas Nacinovich, Senior Auditor
Joan Raniolo, Senior Auditor
Charles Ekholm, Auditor




                                                                                         Page 12
               The Certification and Accreditation of Computer Systems
              Should Remain in the Computer Security Material Weakness

                                                                         Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Director, Certification Testing, Evaluation and Assessment OS:MA:CT
Director, Modernization and Systems Security Engineering OS:MA:M
Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance OS:MA




                                                                               Page 13
                   The Certification and Accreditation of Computer Systems
                  Should Remain in the Computer Security Material Weakness

                                                                                                   Appendix IV


                  Summary of the Certification and Accreditation Process

The following description is derived from the Guide for the Security Certification and
Accreditation of Federal Information Systems, National Institute of Standards and Technology
(NIST) Special Publication 800-37 (dated May 2004).1 It is a brief summary of steps an agency
should take in completing a certification and accreditation.
The evaluation of security controls to enable a decision on whether to place a computer system
into operation is known as certification. Steps to certify a computer system include:
    1. Review the system security plan and confirm that the contents of the plan are consistent
       with an initial assessment of risk.
    2. Notify concerned agency officials as to the need for security certification and
       accreditation; determine the resources needed to carry out the effort; and prepare a plan to
       execute the security certification and accreditation activities, including a proposed
       schedule and key milestones.
    3. Independently analyze security categorizations, obtain an independent analysis of the
       system security plan, update as needed based on the results of the independent analysis,
       and obtain acceptance of the system security plan by the authorizing official and senior
       agency information security officer.2
    4. Gather supporting information needed for the assessment (system requirements and
       design documents, security control implementation evidence, etc.). Evaluate the security
       controls and document results of the evaluation in a security assessment report.
    5. Provide the certification agent with the security assessment report, update the system
       security plan as needed, assemble the final security accreditation package, and submit it
       to the authorizing official.
The senior agency official’s authorization to place a computer system into operation based on the
certification evaluation is known as accreditation. Steps to accredit a computer system include:




1
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements, for providing adequate information security for all Federal Government agency operations
and assets. NIST Special Publication 800-37 provides guidelines for executive agencies to help achieve more secure
information systems within the Federal Government.
2
  NIST supplemental guidance states that a non-independent self-assessment may be used for low-impact systems.
Additional guidance relating to low-impact systems is also provided on other steps in the certification and
accreditation process, generally allowing for a streamlined process and indicating that independence is not required.
                                                                                                            Page 14
            The Certification and Accreditation of Computer Systems
           Should Remain in the Computer Security Material Weakness

1. Determine residual risk to operations or assets based on vulnerabilities and any planned
   or completed corrective actions to reduce vulnerabilities, determine if the actual residual
   risk is acceptable, and prepare the final security accreditation decision letter.
2. Transmit the final security accreditation package to the appropriate individuals and
   organizations and update the system security plan with the latest information from the
   accreditation decision.




                                                                                        Page 15
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness

                                                           Appendix V


     Management’s Response to the Draft Report




                                                               Page 16
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness




                                                           Page 17
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness




                                                           Page 18
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness




                                                           Page 19
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness




                                                           Page 20
 The Certification and Accreditation of Computer Systems
Should Remain in the Computer Security Material Weakness




                                                           Page 21
